DAVID R. MORABITO
Attorney at Law
117 West Commercial Street
P.O. Box 187
East Rochester, NY 14445-0187
(585) 586-5770
FAX: (585) 383-1496

June 24, 2020

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543
Re:

Morabito v. New York
Docket No. 19-1319

Dear Mr. Harris:
Please be advised the Petitioners do not oppose an extension for
Respondents to file an Opposition Brief for whatever time the Court feels is
appropriate.
However, Petitioner, David R. Morabito, is a solo-practitioner
concentrating his practice in the area of criminal law. With the Covid-19
pandemic “winding down”, I will have an extensive case load with hearings and
trials for a number of months.
I would respectfully hope that I receive the same courtesy if I have
scheduling issues that cause conflicting commitments with my law practice.
Thank you everyone and be safe.
Sincerely,
/s/ David R. Morabito
David R. Morabito

DRM/sms

